JUNE 22, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




       NASA’S HANGAR ONE RE-SIDING PROJECT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-020 (ASSIGNMENT NO. A-11-008-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CoF          Construction of Facilities
FY           Fiscal Year
OIG          Office of Inspector General
OMB          Office of Management and Budget
PCB          Polychlorinated Biphenyl


                                               REPORT NO. IG-11-020
JUNE 22, 2011




                                                                                            OVERVIEW

                   NASA’S HANGAR ONE RE-SIDING PROJECT

                                                                                              The Issue

  Hangar One – built in the 1930s to house the naval airship the USS Macon and located on
  Moffett Field, part of the Ames Research Center (Ames) – is one of the world’s largest
  freestanding structures, covering approximately 8 acres. The hangar and many of the
  surrounding buildings are listed on the National Register of Historic Places and as such
  are protected by the National Historic Preservation Act (the Preservation Act). 1

  As part of its base realignment and closure process, the Navy transferred Moffett Field to
  NASA in July 1994. According to the memorandum of understanding governing the
  transfer, the Navy is responsible for “all actions related to the environmental restoration
  or remediation of any pollutant, contaminant or hazardous substance, including petroleum
  products, existing on or migrating from” Moffett Field.

  Between October 2002 and July 2003, NASA discovered that polychlorinated biphenyls
  (PCBs) were leaking from the siding of Hangar One. To contain the PCBs and minimize
  the environmental hazard in the short-term, the Navy coated the hangar with an asphalt
  emulsion in October 2003. Thereafter, NASA and the Navy discussed possible longer-
  term solutions to the environmental problem, as well as which agency would be
  responsible for the associated costs. In August 2009, the Navy began preparing to strip
  away the siding and coat the exposed structural steel surfaces, but took the position that it
  was not responsible for re-siding the hangar. In March 2010, the Office of Management
  and Budget (OMB) settled the dispute between NASA and the Navy, determining that
  while the Navy would have to pay for the environmental cleanup, NASA was responsible
  for the cost of re-siding the hangar and making any additional upgrades and repairs
  necessary to prepare the hangar for reuse. In April 2011, the Navy began the work of
  removing the siding.

  In February 2011, at OMB’s direction, NASA included the re-siding project in the
  supplemental information for the President’s fiscal year (FY) 2012 budget request at an
  estimated cost of $32.8 million. With these funds, NASA proposes to make the structure
  watertight by installing new but historically appropriate exterior siding, roofing, and
  windows.



  1
      The Preservation Act, 16 U.S.C. § 470, authorizes the Secretary of the Interior to expand and maintain a
      National Register of Historic Places composed of districts, sites, buildings, structures, and objects
      significant in American history, architecture, archaeology, and engineering.



REPORT NO. IG-11-020
                                                                                         OVERVIEW



     For this audit, the Office of Inspector General (OIG) examined (1) whether the
     $32.8 million will cover the full costs of the Hangar One project (2) whether NASA has
     identified a NASA-related use or private tenants for the hangar; (3) the effect dedicating
     funds to hangar restoration may have on other NASA construction or renovation projects;
     and (4) whether NASA’s plans to re-side the hangar comply with historical preservation
     requirements.

     Results

     The Hangar One Re-Siding Project was included in the President’s FY 2012 budget
     request as a discrete construction project with an estimated cost of $32.8 million.
     However, even after the re-siding is complete, additional funding will be required –
     potentially tens of millions of dollars – for upgrades and repairs such as the connection of
     utilities, installation of lighting fixtures, and heating, cooling, and safety equipment to
     make the hangar fit for use. Moreover, although funds to re-side the hangar have been
     requested and estimates for additional work are being developed, NASA has neither
     identified a mission-related use for Hangar One nor identified private entities willing to
     commit to leasing the property. At the same time, other mission critical projects were
     removed from NASA’s FY 2012 budget request in order to accommodate inclusion of the
     Hangar One Project. Finally, while Hangar One is protected by the Preservation Act,
     NASA is not required to re-side the hangar to comply with the Act.

     In light of our findings and NASA’s overall challenges related to maintaining its aging
     facilities, we question whether preservation of Hangar One is the best use of limited
     NASA funds. Even after expending more than $32 million, NASA will have a building
     that has no immediate or near-term prospects for reuse. Moreover, without a substantial
     infusion of additional funds for improvements, the building will not be available for
     occupancy by Agency employees or private entities, or even suitable as an aircraft
     hangar. In addition, expending funds on Hangar One will mean the continued deferral of
     other critical Agency renovation projects. In our judgment, NASA should analyze the
     full range of options before moving forward with the Hangar One Re-Siding Project.

     Management Action

     We recommended that the Associate Administrator for Mission Support consider the
     following alternatives for Hangar One: (1) re-side the hangar as described in the budget
     request and identify the annual maintenance cost assuming no use; (2) re-side the hangar
     and complete the upgrades and repairs necessary to allow for use as aircraft storage;
     (3) re-side the hangar and complete the upgrades and repairs necessary to allow for use as
     exhibition space or for other public assemblies; (4) demolish the hangar and carry out
     mitigation actions in accordance with the Preservation Act; and (5) transfer the hangar to
     another Government entity.




ii                                                                          REPORT NO. IG-11-020
OVERVIEW



  In response to a draft of our report, the Associate Administrator concurred with our
  recommendation and stated that NASA will evaluate the full range of alternatives no later
  than November 30, 2011. We consider the Associate Administrator’s comments and
  proposed actions to be responsive to our recommendation. The recommendation is resolved
  and will be closed upon completion and verification of the proposed actions.




REPORT NO. IG-11-020                                                                          iii
JUNE 22, 2011




                                                           CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      Costly Re-Siding Project Planned for Facility with No Identified
        Mission Use _______________________________________ 5

  APPENDIX A
      Scope and Methodology _______________________________ 13
      Review of Internal Controls ____________________________ 13
      Prior Coverage ______________________________________ 14

  APPENDIX B
      Shenandoah Historic District Properties ___________________ 15

  APPENDIX C
      Management Comments ______________________________ 16

  APPENDIX D
      Report Distribution ___________________________________ 18




REPORT NO. IG-11-020
JUNE 22, 2011




                                                                                      INTRODUCTION


Background

  Hangar One, located at Moffett Field in California, is part of the Ames Research Center’s
  (Ames) NASA Research Park. Prior to its transfer to NASA in 1994, Moffett Field
  served as the West Coast base for the Navy’s “lighter-than-air aviation program” and
  other military missions. Hangar One was built in 1933 and previously housed the naval
  airship the USS Macon. 2 The hangar is one of 22 buildings, 9 houses, and 3 monuments
  in the Shenandoah Plaza Historic District (see Figure 1). The structure is listed on the
  National Register of Historic Places (National Register), and is protected by the National
  Historic Preservation Act of 1966 (the Preservation Act) for its military and engineering
  significance. 3 (See Appendix B for more information on the Shenandoah Plaza Historic
  District.)

  Figure 1. Example of a Building in the Spanish Colonial Style




  Example of a building in the Spanish Colonial style in the Shenandoah Historic District at Ames. Hangar
  One is in the background.

  Hangar One and its counterpart in Akron, Ohio, are the two largest structures in the
  United States without internal support. 4 Hangar One is 1,133 feet long by 308 feet wide
  2
      The Macon was a rigid 784-foot long airship used by the Navy for scouting and as a flying aircraft
      carrier carrying five biplanes. The Macon was in service for less than 2 years before it was lost in a
      storm off the California coast in 1935.
  3
      The Act, 16 U.S.C. § 470, authorizes the Secretary of the Interior to expand and maintain a National
      Register of Historic Places composed of districts, sites, buildings, structures, and objects significant in
      American history, architecture, archaeology, and engineering. The Act requires each federal agency to
      have a preservation program and sets forth the actions agencies must take when considering undertakings
      that affect a historic property. Hangar One was added to the National Register in 1992, and the larger
      historic district in 1994.
  4
      Hangar One’s sister structure, the Airdock, was built by the Goodyear Zeppelin Corporation in 1929.



REPORT NO. IG-11-020                                                                                                1
                                                                                              INTRODUCTION



    and 198 feet tall with approximately 8 acres of floor space (351,000 square feet). Hangar
    One is distinctive not only because of its massive size, but also because of its design,
    known as “Streamline Moderne.” The hangar’s north and south walls are comprised of
    pairs of gigantic “orange-peel” or “clamshell” doors that run on a curved track and weigh
    about 500 tons each (see Figure 2).

    Figure 2. Hangar One with Doors Opening




    This photo of Hangar One, taken in 1992, shows the doors opening. The cars and airplanes provide a
    perspective of the hangar’s size.

    As part of the base realignment and closure process, the Navy identified Moffett Field for
    closure. However, NASA was using the airfield for research and development and
    wanted to retain access to it. In addition, local governments and Silicon Valley aerospace
    and research companies urged NASA to retain the airfield as a Federal joint-use facility
    in order to preserve the relationship between the airfield’s Federal tenants and Silicon
    Valley industries. As a result, the Navy and NASA signed a memorandum of
    understanding (MOU) in 1992 to transfer Moffett Field, including Hangar One, to NASA
    at no cost. NASA assumed possession of Moffett Field in July 1994 and in 1998 created
    the NASA Research Park. Since that time, other Government agencies, academic and
    non-profit institutions, and industry have leased space in various buildings in the
    Research Park. 5

    Toxins Discovered at Hangar One. Because of environmental contamination issues,
    Hangar One has been vacant and closed for over 8 years. In 1997, NASA discovered



    5
        These tenants include Airship Ventures, Carnegie Mellon University, E-Green Technologies, Google,
        and the University of California, Santa Cruz.



2                                                                                     REPORT NO. IG-11-020
INTRODUCTION



  polychlorinated biphenyls (PCBs) in Ames’s storm drain settling basin. 6 Subsequent
  tests by NASA identified the source of the PCBs as the metal siding and lead-based paint
  that coats the steel frame structure and siding of Hangar One. According to the 1992
  MOU governing the transfer of Moffett Field to NASA, the Navy is responsible for “all
  actions related to the environmental restoration or remediation of any pollutant,
  contaminant or hazardous substance, including petroleum products, existing on or
  migrating from” Moffett Field.

  The Navy’s Environmental Remediation Plans and Community Resistance. To
  quickly contain the PCBs leaking from Hangar One’s siding and minimize the
  environmental hazard in the short-term, in October 2003 the Navy pressure washed and
  coated the siding with an asphalt emulsion. Thereafter, the Navy began to explore
  longer-term remediation options. In 2006, the Navy proposed demolishing Hangar One.
  However, to comply with the Preservation Act, the Navy was required to consult with the
  California State Historic Preservation Officer, the Advisory Council on Historic
  Preservation, and the public. 7 These consultations generated a significant amount of
  public and local congressional resistance to the proposed demolition, and in 2008 the
  Navy abandoned its plan to demolish the hangar. Instead, the Navy recommended
  stripping away the siding and interiors to eliminate the source of the contamination,
  thereby leaving the building’s steel structure (see Figure 3). Under this plan, the Navy
  would not re-side the hangar. As discussed below, NASA did not agree with the Navy’s
  remediation plan because it would leave the hangar uncovered and not suited for use.
  Nevertheless, in August 2009 the Navy awarded a $22.4 million contract to remove the
  siding and interior of Hangar One.

  NASA’s Hangar One Responsibilities. NASA officials took the position that as part of
  its remediation responsibilities, the Navy should pay to re-side Hangar One. Ultimately,
  the dispute between the agencies was resolved by the Office of Management and Budget
  (OMB). In March 2010, OMB decided that although the Navy was responsible for
  environmental cleanup, this did not include the cost of re-siding the hangar. Accordingly,
  NASA would be responsible for the costs associated with re-siding and preparing the
  hangar for reuse.




  6
      According to the Environmental Protection Agency, PCBs have been demonstrated to cause cancer as
      well as a variety of other adverse health effects on the immune system, reproductive system, nervous
      system, and endocrine system.
  7
      Among the responsibilities of the State Historic Preservation Officer are to consult with the appropriate
      Federal agencies on Federal undertakings that may affect historic properties. The Advisory Council on
      Historic Preservation is an independent agency of the U.S. Government established by the Preservation
      Act with responsibility to advise the President and the Congress on matters relating to historic
      preservation and recommend measures to coordinate activities of Federal, state, and local agencies and
      private institutions and individuals relating to historic preservation.



REPORT NO. IG-11-020                                                                                              3
                                                                                              INTRODUCTION



    Figure 3. Hangar One under Construction in 1933




    This photograph shows the steel frame structure of Hangar One, which is essentially what will remain when
    the Navy’s contractor completes removal of the siding.

    Community Interest in Preserving Hangar One. In 1995, the Navy created a
    Restoration Advisory Board (RAB) to provide a forum for public input regarding the
    restoration of facilities on Moffett Field including Hangar One. In addition to the RAB,
    concerned citizens formed the “Save Hangar One Committee” in 2005. “Save Hangar
    One” is an informal, ad hoc community group organized to raise awareness of the
    benefits of preserving Hangar One. According to a Committee official (who is also a
    member of the RAB), Hangar One is an important part of the local community and key to
    the area’s emphasis on scientific research and innovation. In the view of this official, the
    hangar would be an ideal location for an air and space museum or as a global hub for
    science, technology, engineering, and mathematics education. This official believes that
    the preservation of Hangar One is consistent with NASA’s mission to promote education
    and that private entities are likely to invest in the hangar given the tax incentives
    associated with reusing protected historic properties.


Objectives

    The OIG reviewed NASA’s Hangar One Re-Siding Project to examine (1) whether the
    Agency’s cost estimates for the Project are complete and realistic; (2) whether NASA has
    identified an Agency use or potential private entities to rent Hangar One; (3) whether
    funds for the Project have been diverted from other Construction of Facilities (CoF)
    projects and the impact on those projects; and (4) if NASA’s re-siding plans comply with
    historical preservation requirements. We also reviewed internal controls as they relate to
    the overall objective. See Appendix A for details of the audit’s scope and methodology,
    our review of internal controls, and a list of prior coverage.


4                                                                                    REPORT NO. IG-11-020
RESULTS




                                   COSTLY RE-SIDING PROJECT PLANNED FOR
                                         FACILITY WITH NO IDENTIFIED USE

            OMB directed NASA to include in the President’s fiscal year (FY) 2012 budget
            request $32.8 million to pay for the re-siding of Hangar One. However, this funding
            will not be sufficient to make the facility usable as a hangar or for office space. In
            addition, NASA has not identified a mission-related use for Hangar One or any
            outside entity willing to commit to leasing the property. Moreover, requests to repair
            other mission critical projects were removed from NASA’s FY 2012 budget request
            to accommodate the Hangar One Project. Although Hangar One is protected by the
            Preservation Act, the Act does not require that NASA re-side and continue to
            maintain the hangar. In light of NASA’s costly infrastructure challenges, we
            question whether spending approximately $33 million to re-side a facility that has no
            identified NASA -related use, no immediate prospect for use by other tenants, and
            that would require the expenditure of a substantial amount of additional funds to
            make usable is the best use of NASA’s limited resources.


Additional Funding Beyond the FY 2012 Budget Request Will Be
  Required to Make Hangar One Usable

  The Hangar One Re-Siding Project was included in the President’s FY 2012 budget
  request as a discrete CoF project for $32.8 million. As proposed, the Project consists of
  installing new but historically appropriate exterior siding, roofing, and windows.
  However, while this work will produce a watertight building, because items such as
  connecting utilities or installing lighting fixtures, heating, cooling, fire alarms, sprinklers,
  or other safety equipment are not included, the resulting structure will be neither
  habitable nor fit for other uses including as an aircraft hangar. 8 While the cost to make
  the building fully useable cannot be precisely determined until potential tenants and their
  requirements are identified, it is likely that an additional investment of tens of millions of
  dollars would be required. In addition, the cost estimate used to justify the $32.8 million
  for the re-siding project did not identify the cost of maintaining the hangar after it is
  completed. Consequently, the annual maintenance costs of the hangar after the re-siding
  project is completed are unknown.


NASA Has Not Identified a Use for Hangar One

  According to NASA officials, the Agency does not have a mission-related use for Hangar
  One and no NASA program offices have shown interest in occupying the hangar.
  8
      The Hangar One project is planned to adhere to Secretary of the Interior rehabilitation guidance for
      historic properties.



REPORT NO. IG-11-020                                                                                         5
                                                                                                        RESULTS



    Ames Research Center officials told us that they expect to recoup the cost of the re-siding
    project by leasing the hangar to outside organizations, and that these tenants will bear the
    cost of additional upgrades needed to make the facility fit for their needs. However, to
    date no external entity has committed to leasing the hangar or paying for the necessary
    upgrades. Although Ames officials told us they have received preliminary inquiries from
    external organizations regarding leasing all or part of the hangar, as of May 2011 no
    formal agreements have been executed. In addition, under 51 U.S.C. 20145, when
    leasing non-excess real property, NASA does not have the authority to allow tenants to
    receive in-kind payment to make repair, upgrades, or capital improvements to NASA
    property. 9 Consequently, any potential lessee for Hangar One would be required to pay
    for improvements to Hangar One as well as paying the Agency fair market value in cash.
    Accordingly, it remains unclear whether a tenant or tenants will lease the space much less
    assume all of the costs needed to upgrade the facility.

    Adding to our doubts regarding the likelihood that Hangar One will be leased is the
    significant amount of existing space in two other historic hangars available for lease at
    Moffett Field that would not require significant investment from prospective tenants.
    These hangars are shown in Figure 4 below.

    Figure 4. Hangar Two and Hangar Three




    Hangars Two and Three are approximately 1,100 feet long by 300 feet wide and 170 feet tall, and each has
    approximately 240,000 square feet of floor space. These hangars are also part of the Shenandoah Plaza
    Historic District.

    According to Ames personnel, NASA is currently leasing only 31 percent (132,349
    square feet) of the available floor space (approximately 427,000 square feet) in these




    9
        Under 51 U.S.C. 20145, the Agency may lease non-excess real property at fair market value for cash
        consideration. In-kind consideration is not authorized under 51 U.S.C. 20145.


6                                                                                      REPORT NO. IG-11-020
RESULTS



  hangars. 10 In our judgment, this fact casts significant doubt that NASA’s plan to solicit a
  tenant or tenants for Hangar One will come to fruition.

  If the re-siding project is completed and the Center does not find a lessee for Hangar One
  as planned, Ames officials believe that the Hangar could be used for other purposes
  without further investment. However, in our judgment, these alternatives fail to recoup
  or justify the $32 million re-siding costs. For example, Ames officials indicated that the
  facility could be used for storage of non-combustible equipment or it could be used to
  hold short duration public events if the south “clam shell” doors were left opened. 11
  However, Ames officials have not identified a need for additional storage space and have
  not used the hangar to hold public events in over 8 years due to the environmental
  contamination. 12

Other Mission Critical Projects Will Be Delayed to Fund Hangar
  One Re-siding

  Including the Hangar One Re-siding Project in NASA’s FY 2012 budget request means
  repairs to other important NASA facilities will be delayed. According to NASA officials,
  the Hangar One Re-Siding Project is not critical to NASA’s mission and would not have
  been included in NASA’s Budget Request absent explicit direction from OMB. In order
  to accommodate the Hangar One Project, NASA removed other planned construction
  projects from its budget submission. Specifically, one major renovation project costing
  $11 million, three minor renovation projects estimated at $6.1 million, and $15.7 million
  in facility planning and design funds were removed from NASA’s FY 2012 budget
  request to offset the cost of the Hangar One Project.

  Moreover, NASA did not subject the Hangar One Project to the Agency’s normal review
  and prioritization process for institutional construction projects. The intent of this
  process is to ensure that construction requests from all the Centers are reviewed and that
  only the highest priority projects are funded. According to NASA officials, if the Hangar
  One Re-Siding Project had been subjected to this process it would not have been included
  in the budget submission because there were many higher priority projects that could
  pose a risk to NASA’s mission success if left unaddressed. As our recent Audit of

  10
       A portion of the hangars are unleasable fixed space (mechanical rooms and fire lanes). In addition, some
       of the available lease space is for offices that would need either to be refurbished or demolished before it
       could be occupied. Furthermore, while some of the space is being used by NASA for storage, this space
       was considered leasable because NASA could relocate the items to other locations or dispose of them if a
       lessee was identified.
  11
       According to the Ames Fire Marshal, because the facility would not have the required safety measures
       such as a fire alarm system, storage would be limited to items that would not contain combustible liquids
       such as fuels, oils, and hydraulics. Additionally, because egress is a concern for public events, the south
       doors would be required to remain open to allow for quick evacuation in case of emergencies.
  12
       According to Ames personnel, the storage contained in Hangars 2 and 3 could be moved to Hangar One
       after the re-siding project is completed to free up additional space to lease in those hangars. However,
       Hangars 2 and 3 already have available space that is not leased. As such, we do not believe Ames has a
       need to free up additional space for the foreseeable future.



REPORT NO. IG-11-020                                                                                                  7
                                                                                                        RESULTS



    NASA’s Facilities Maintenance showed, many of NASA’s facilities are in degraded
    condition and the Agency’s maintenance backlog has grown from $1.9 billion in FY 2005
    to $2.55 billion in FY 2010. 13 Continued deferral of facility renovation projects could
    result in unsafe working conditions, higher annual maintenance costs, and increased risks
    to mission success.

    Important Utility Renovation Project Delayed. To accommodate the Hangar One
    Project, NASA removed from its budget request $11 million intended for restoration of
    Ames Research Center’s electrical distribution system. This project would have
    upgraded the failing high-voltage electrical distribution system at the Center.

    According to the justification for the power upgrade project:

               Typical service life for electrical distribution equipment is 20-30 years. Much of the
               electrical equipment at ARC [Ames Research Center] was built during the 1940s and
               50s and is well past average service life. This project will reduce the risk and
               frequency of high voltage electrical distribution system failures. The increase of
               maintenance requirements for existing facilities due to the age of equipment has
               adversely impacted safety and reliability at the Center. Existing equipment
               continuously requires significant manpower to repair, maintain, and replace
               components for which spare parts are not always available. Unplanned outages due to
               equipment failures have and will continue to cause lengthy downtimes and delays for
               projects, and significantly increase costs to those projects that will be interrupted.
               Outages could affect any or all buildings including research facilities such as wind
               tunnels, arc heaters, and vertical motion simulators. Approximately 90 buildings are
               impacted by a complete outage of both transmission lines, both main breakers, and
               both main buses at the main substation.

    Other Renovation Projects Delayed. Three renovation projects totaling $6.1 million
    were also removed from the FY 2012 budget request to accommodate the Hangar One
    Project. Two of these projects would have replaced roofs and upgraded energy
    conservation efforts at Ames, while the third would have replaced roofs at Goddard
    Space Flight Center.

    The roofs on five buildings at Ames and five buildings at Goddard have re-occurring
    leaks that the Agency has only been able to patch temporarily due to the poor condition
    of the roof membranes. Most of the buildings house critical mission programs and
    expensive equipment.

          •    One of the Ames buildings contains a high-pressure air compressor that was
               refurbished in 2008 at a cost of over $2.6 million. According to project
               justification records, a tarp is being used to shield the compressor from water
               leaking from the roof. Another building contains Ames’s central computer




    13
         NASA OIG. “Audit of NASA’s Facilities Maintenance” (IG-11-015, March 2, 2011).



8                                                                                        REPORT NO. IG-11-020
RESULTS



             facility that supports the campus local area network hub and all of its related
             services. 14

         •   At Goddard, one of the buildings contains newly renovated labs and a high bay
             that holds flight hardware prior to entering the clean room. Other buildings
             contain office space to support Center administration, the Center’s gymnasium,
             and the Research Aircraft and Operations Science Lab.

  The justifications for these roof repairs also noted that rapid deterioration of building
  support beams, ceilings, walls, floors, and finished trim as well as mold growth routinely
  result when roofing degrades to the point of failure.

  The project to upgrade energy conservation efforts at Ames would have increased the
  effectiveness of the Facilities Management Control System that monitors and controls
  energy use. 15 For approximately $2.9 million in improvements, Ames estimated it could
  save approximately $3.7 million over 10 years in utility costs by better monitoring and
  managing Center environmental controls.

  Facility Planning and Design Funds. In addition to removing funds from the projects
  described above, inclusion of the Hangar One Project in NASA’s FY 2012 budget request
  also reduced planning and design funds for future CoF projects from $55.7 million to
  $40 million. While this amount represents an increase from the 2011 funding level of
  $27.7 million, the reduction will negatively affect Centers’ planning and design efforts.

Flexibilities for Compliance with National Historic Preservation
  Act

  Because of Hangar One’s historical significance, any actions NASA takes regarding the
  hangar must comply with the Preservation Act. 16 Going forward, NASA is developing a
  Condition Assessment and Rehabilitation Plan for the hangar that lists several
  alternatives for re-siding and repairing the hangar. The options under consideration by
  NASA include:

         •   basic re-siding and determination of annual maintenance costs assuming no use;

         •   basic re-siding with upgrades and repairs that would allow the facility to be used
             as a hangar;

  14
       The other three Ames buildings are used by the Biosphere Science Branch and Thermal Protection
       Materials and Systems Branch.
  15
       This project also included upgrading 69 laboratory fume hoods to more energy efficient models.
  16
       Up to this point, NASA has been active in historic mitigation efforts with the Navy, assisting in
       preparation of the Historic American Engineering Record for Hangar One. In addition, the Agency has
       requested consultation with the California State Preservation Officer on the planned new facade for
       Hangar One. NASA’s planned rehabilitation of the roof and siding is for replacement with in-kind
       materials in accordance with the Secretary of the Interior’s standards for rehabilitation guidance for
       preservation of historic properties listed on the National Register.



REPORT NO. IG-11-020                                                                                            9
                                                                                                              RESULTS



            •   basic re-siding with upgrades and repairs that would allow the facility to be used
                for public assemblies such as exhibitions or other public events.

     However, there are other less costly options for complying with the Preservation Act that
     we believe NASA should also consider.

     After the Navy completes its environmental remediation work in early 2012, NASA
     could take one of the following actions in lieu of re-siding the hangar:

                Transfer Hangar One to State or Local Governments. Under the National
                Park Service’s Historic Surplus Property Program, Federal property listed on the
                National Register may be transferred at no cost to state and local governments.
                Recipients of historic surplus properties are responsible for preserving and
                maintaining the property. The Historic Surplus Property Program would allow
                NASA to transfer ownership of Hangar One to state or local governments in the
                communities that have been active in trying to preserve the hangar.

                Demolish Hangar One. The Preservation Act does not require preservation of
                historic properties when preservation is not economically feasible or when the
                properties will not serve agency requirements. 17 Under the Act, Federal agencies
                may alter or demolish historic properties provided they consult with the State
                Historic Preservation Officer and other interested parties and take steps to
                mitigate the effect of such an action. For example, an agency may make records
                of the property for future use and reference. 18 Although we understand that there
                would be significant community and local congressional resistance to
                demolishing the hangar, given all of the factors discussed above we believe
                NASA should at least consider this option.

     In our judgment, only by carefully considering and documenting its analysis of all
     possible options for Hangar One can NASA demonstrate that it has made an informed
     decision regarding the future of the facility. Any decision on the fate of Hangar One
     should be made in a timely manner as safety issues could arise after the Navy finishes
     removing the contaminated siding and the steel structure is left exposed. 19




     17
          Section 110 of the Preservation Act (16 U.S.C. § 470) and “The Secretary of the Interior’s Standards and
          Guidelines for Federal Agency Historic Preservation Programs Pursuant to the National Historic
          Preservation Act.”
     18
          For example, in 2006 when the Navy was planning to demolish Hangar One, the Navy and NASA jointly
          prepared a Historic American Engineering Record for Hangar One. The Navy estimated total costs for
          historic mitigation at the cost of approximately $350,000. NASA paid approximately $53,000 of this
          cost.
     19
          These safety issues include the rusting or deterioration of structural joints from weather exposure and the
          increase risk of bird strikes to aircraft due to nesting in the exposed structure.



10                                                                                           REPORT NO. IG-11-020
RESULTS



Conclusion

  While we do not dispute that historic preservation is a worthy consideration, we question
  whether expending more than $32 million to re-side a hangar that has no prospects for
  reuse for the foreseeable future and would require substantial additional investment to
  make it habitable is the best use of NASA’s limited construction resources. Moreover,
  dedicating funds to Hangar One means that other critical renovation and repair projects
  will be delayed, which could result in unsafe working conditions, higher annual
  maintenance costs, and damage to Agency equipment. Given these risks, we believe
  NASA should analyze the full range of options before taking further action regarding
  Hangar One.

Recommendation, Management’s Response, and Evaluation of
  Management’s Response

The Associate Administrator for Mission Support should include the following alternatives
in the Condition Assessment and Rehabilitation Plan for Hangar One:
  •   Re-side Hangar One as described in the Budget Request and determine the annual
      maintenance cost assuming no intended use;
  •   Re-side Hangar One and make the necessary upgrades and repairs to enable use as a
      hangar;
  •   Re-side Hangar One and make the necessary upgrades and repairs to enable public
      assemblies;
  •   Demolish Hangar One and carry out historic preservation mitigation actions; and
  •   Transfer Hangar One to another government entity under the Historic Surplus
      Property Program.

  Management’s Response. The Associate Administrator for Mission Support concurred
  and stated that NASA is in the process of contracting for developing a Condition
  Assessment and Rehabilitation Plan to identify structural or other improvements to
  Hangar One that may be required to meet the needs of potential users. Based on our draft
  report, NASA has modified the statement of work to include alternatives equivalent to the
  first three items listed in the OIG Recommendation. According to the Associate
  Administrator, the fourth and fifth alternates will be evaluated by NASA staff. The final
  Condition Assessment and Rehabilitation Plan will include the first three alternatives,
  plus the government evaluations of the fourth and fifth as addenda. The final plan will be
  completed no later than November 30, 2011.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation; therefore, the recommendation is
  resolved and will be closed upon completion and verification of the proposed actions.




REPORT NO. IG-11-020                                                                           11
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this audit from January through June 2011 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed work at NASA Headquarters and Ames Research Center. We interviewed
  officials at NASA Headquarters and at the Ames Research Center and also reviewed
  Federal regulations, NASA guidance, and documentation pertaining to the Hangar One
  Project, planning for CoF projects, historical preservation, leasing, environmental
  remediation, and cost estimating. We analyzed FY 2012 budget submissions, CoF
  planning documents, and other documentation to determine whether funds to be used for
  the Hangar One project will come from other planned CoF projects and the impact of
  postponing those projects. We interviewed officials from Ames Research Center’s
  Center Operations Directorate to determine the efforts NASA is making to identify
  potential uses for Hangar One, including potential reimbursable tenants. We examined
  the independent cost estimate to determine if the cost estimate developed for the project
  is complete and realistic. We reviewed 1992 and 2008 memorandums of understanding
  between the Department of the Navy and NASA, associated correspondence, and Office
  of Management and Budget directions to determine if all NASA environmental liability
  and clean-up costs related to the facility were properly accounted for. We interviewed
  historical preservation officials and examined planning documentation to determine if
  NASA will be re-siding the Hangar in a manner in which the historical preservation
  requirements are met and if the hangar could be used by NASA programs or reimbursable
  tenants.

  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.


Review of Internal Controls

  We reviewed and evaluated the internal controls associated with the Hangar One project,
  including identifying the decision process used to assess whether the project should be
  funded, reviewing cost estimates, and determining the impact on NASA missions. Our
  review included an evaluation of the actions planned and taken by NASA Headquarters,



REPORT NO. IG-11-020                                                                           13
                                                                                    APPENDIX A



     Facilities Engineering and Real Property Division for the Ames Research Center on this
     project. We found deficiencies in these areas, as discussed in this report.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the
     Government Accountability Office (GAO) have issued six reports of particular relevance
     to the subject of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “Audit of NASA’s Facilities Maintenance” (IG-11-015, March 2, 2011)

     Government Accountability Office

     “Federal Real Property: Progress Made on Planning and Data, but Unneeded Owned and
     Leased Facilities Remain” (GAO-11-520T, April 6, 2011)

     “Opportunities to Reduce Potential Duplication in Government Programs, Save Tax
     Dollars, and Enhance Revenue” (GAO-11-318SP, March 2011)

     “Federal Real Property: The Government Faces Challenges to Disposing of Unneeded
     Buildings” (GAO-11-370T, February 10, 2011)

     “High-Risk Series: An Update” (GAO-11-278, February 2011)

     “Federal Real Property: An Update on High Risk Issues” (GAO-09-801T, July 15, 2009)




14                                                                        REPORT NO. IG-11-020
APPENDIX B




                   SHENANDOAH HISTORIC DISTRICT PROPERTIES




REPORT NO. IG-11-020                                         15
                       APPENDIX C




     MANAGEMENT COMMENTS




16            REPORT NO. IG-11-020
APPENDIX C




REPORT NO. IG-11-020   17
                                                                               APPENDIX D




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Mission Support
     Director, Ames Research Center
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




18                                                                    REPORT NO. IG-11-020
Major Contributors to the Report:
   Ridge Bowman, Director, Infrastructure and Facilities Management Directorate
   Karen VanSant, Project Manager
   Troy Zigler, Management Analyst
   Janice Smith, Auditor




REPORT NO. IG-11-020                                                              19
                                                                                         JUNE 22, 2011
                                                                        REPORT No. IG-11-020




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
